 INSPECTOR GENERAL




________   NATIONAL LABOR RELATIONS BOARD
                               WASHINGTON, DC 2 0 5 7 0

I hereby submit this Semiannual Report: April 1 — September 30, 2004, which summarizes
the major activities and accomplishments of the Office of Inspector General (OIG) of the
National Labor Relations Board (NLRB or Agency). The submission of this report is in
accordance with the Inspector General Act of 1978, as amended (IG Act). Section 5 of the
IG Act requires that the Chairman transmit this report to the appropriate committees or
subcommittees of the Congress within 30 days of its receipt.

In the audit program, OIG issued two audit reports and one inspection report. In the
investigations program, OIG processed 92 contacts, initiated 5 cases, and closed 13 cases.
The investigations resulted in six administrative actions and $347 in investigative
recoveries. We reviewed seven pieces of legislation. Details on these accomplishments can
be found in the body of this report.

During this period, OIG devoted significant attention to the administration of the Agency
with particular attention to information systems security matters. We reached agreement
with the Agency on actions needed to implement the 15 recommendations made in our
review of the Agency's information systems security. We initiated and completed an
Inspection of Software Licensing Agreements and found unauthorized software on half of
the computers tested. In that inspection report we made suggestions that could lead to
$28,400 in annual savings to the Agency. We reviewed the timeliness of personnel actions
and found that the Agency, in the majority of instances, met the processing timeframe set
forth in Agency and the U.S. Office of Personnel Management guidelines. We also
continued our investigative efforts to ensure the integrity of the Agency's transit subsidy
program and compliance with the Internet access policy against viewing sexually explicit
material.

I appreciate the support of all Agency employees in achieving the accomplishments set
forth in this report.




                                               Jane E. Altenhofen
                                               October 29, 2004
                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair fair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1               April 1 – September 30, 2004
                                                                        AGENCY PROFILE

The NLRB has a full complement of five           In addition to the Headquarters building,
members that includes Chairman Robert            employees are located in 51 field offices
J. Battista and Board Members Peter C.           throughout the country. Three satellite
Schaumber, Wilma B. Liebman, Dennis              offices for the Administrative Law
P. Walsh, and Ronald E. Meisburg.                Judges are located in Atlanta, San
                                                 Francisco, and New York. Since
The NLRB received an appropriation of            October 2, 2000, field offices included
$244,072,983 for Fiscal Year (FY) 2004,          32 Regional Offices, 16 Resident
less an across-the-board rescission of .59       Offices, and 3 Subregional Offices.
percent, leaving a net spending ceiling of
$242,632,952 to fund an expected                 Additional information about the NLRB
ceiling of 1,875 full-time equivalents.          can be found on the Web site
NLRB Headquarters is at 1099 14th                www.NLRB.gov.

Street, NW, Washington, DC.




NLRB OIG Semiannual Report                   2              April 1 – September 30, 2004
                                     OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources
The FY 2004 OIG budget was $990,700
for operations, of which $166,000 was
for contract services. In addition to the
Inspector General, the OIG consists of a
Counsel/Assistant Inspector General for
Investigations, Assistant Inspector
General for Audits, a criminal
investigator (position currently vacant),
three auditors, and a staff assistant.




NLRB OIG Semiannual Report                  3            April 1 – September 30, 2004
                                                             AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports and one inspection report that identified $28,400 in costs that could be saved
annually.

Reports Issued                                   not have the proper initiator or
•   We issued Audit Report                       authorizer in a few cases. Also, in a few
OIG-AMR-42-04-02, Audit of the                   cases, HRB processed some personnel
Timeliness of Personnel Actions, on              actions without obtaining the necessary
August 20, 2004. We conducted this               Budget and Security concurrence and, in
audit to determine the length of time to         some cases, annotated certificates of
process various personnel actions.               eligibles bearing the selecting official's
                                                 signature were not filed in the merit
In the majority of instances, the Human          vacancy files.
Resources Branch (HRB) completed
personnel actions timely, within the 22          In May 2004, the U.S Office of
days indicated in Agency guidance.               Personnel Management (OPM) asked
                                                 agencies to begin implementation of a
In a few instances, HRB did not process          45-day hiring model for the Federal
actions in a timely manner. Some                 government. Although some data is not
actions were completed so late that              available, the Agency appeared to meet
employee paychecks were affected.                the goal of 45 days from the close of a
Some actions with a "not to exceed" date         vacancy announcement to when an offer
were not terminated in a timely manner,          is made during FY 2003.
resulting in overpayments to employees.
                                                 Management generally agreed with the
Regional Office personnel actions did            recommendations and findings.




NLRB OIG Semiannual Report                   4               April 1 – September 30, 2004
                                                                         AUDIT PROGRAM

•   We issued Audit Report                      Regional Offices generally did not
OIG-AMR-43-04-03, Audit of the                  maintain electronic records in a manner
Archiving of Case Files, on September           and location that would facilitate their
20, 2004. This review was conducted to          reconstruction if the hard-copy records
determine the adequacy of the Agency’s          were destroyed.
record retention policy and practices for
case files and ascertain whether the            Management generally agreed with our
policy was implemented as designed.             findings and recommendations.


Three of the four Regional Offices              •   We issued Inspection Report
reviewed generally transferred case files       OIG-INS-33-04-05, Inspection of
to the Federal Records Centers (FRC)            Software Licensing Agreements, on
for temporary storage in accordance with        August 18, 2004. We performed this
the NLRB Records Retention Schedules.           inspection to determine the adequacy of
One Regional Office and the Case                controls over computer software.
Records Unit did not transfer a
significant number of files to the FRC in       Procurement files lacked justifications,
accordance with theses schedules.               more Microsoft Windows/Office
                                                software purchased than needed
The Agency did not perform several              resulting in $43,618 in additional cost,
required administrative functions. The          and further reductions could be made in
Agency did not identify vital records,          software requirements that would save
provide necessary training for Record           $28,400 per year. We also found
Liaison Officers, evaluate records              unauthorized software on 45 of 90
service vendors before entering into an         computers tested and installation
interagency agreement, and verify cost          controls not functioning on some
information on monthly invoices.                computers.




NLRB OIG Semiannual Report                  5                April 1 – September 30, 2004
                                                                       AUDIT PROGRAM

Management generally agreed with the           •   Audit of Agency Leased Vehicles,
findings and suggestions. Management           OIG-AMR-38-03-01, was issued on
stated they had been planning to reduce        January 24, 2003, and we reached
the Microsoft license cost by $43,618,         agreement with management on actions
and would pursue the suggested action          needed to implement the
to achieve an additional $28,400               recommendations on that date. Actions
reduction.                                     necessary to close this audit were
                                               completed by September 17, 2004.
Audit Follow-up
Agreed upon actions were not completed         •   Information Security Review of
within 1 year on four audit reports, two       New Automated Systems, OIG-AMR-
of which are now closed.                       40-03-03, was issued on September 22,
                                               2003, and we reached agreement with
•   Review of Information Systems              management on actions needed to
Security, OIG-AMR-30-00-03, was                implement the eleven recommendations
issued on September 29, 2000. We               on that date. Action was completed on 6
reached agreement with management on           of the 11 recommendations.
actions needed to implement the 15             Management is working to implement
recommendations made in the report on          the remaining recommendations by the
December 27, 2000. Actions necessary           end of FY 2005.
to close this audit were completed by
May 12, 2004.




NLRB OIG Semiannual Report                 6              April 1 – September 30, 2004
                                              INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 92 contacts, initiated 5 cases, and closed 13 cases. The investigations resulted
in three suspensions, three counselings, and $347 in investigative recoveries. One case
was referred for prosecution.


                        Case Workload                  Contacts Processed

                  Open (4/1/2004)        13       Received                  92

                  Initiated               5       Initiated Investigation   3

                  Closed                 13       Opened Case --             0
                                                  Referred to Agency
                  Open (9/30/2004)        5       Non-Investigative         89
                                                  Disposition


•   Transit Subsidy Fraud. As                      For the four cases previously reported,
previously reported, the OIG initiated             two of the subjects received a 5-day
several cases involving the Agency                 suspension to be served on weekends
transit subsidy program. During this               and two subjects received informal
reporting period, we completed an                  counseling. (OIG-I-350, 351, 352, 354,
additional investigation substantiating            355, and 356)
that an employee improperly received
more transit subsidy than the employee             •    Education Credentials. As
was eligible to receive. The amount of             previously reported, the OIG issued a
the reported overpayment was $347.                 report involving an employee who stated
The subject received a 3-day suspension            on her employment application that she
that is being held in abeyance provide             expected to complete the degree and
that she engages in no further                     then a month later claimed to have
misconduct and makes restitution to the            completed the degree when she
Agency. The U.S. Attorney's Office                 submitted her security background
declined prosecution.                              questionnaire to OPM. The background


NLRB OIG Semiannual Report                    7                   April 1 – September 30, 2004
                                                             INVESTIGATIONS PROGRAM

investigation disclosed that the degree        •   Failure to Follow Agency
had not been completed. When                   Procedures. The OIG received an
questioned about this discrepancy, the         allegation that an office director failed to
subject falsely stated that she had            provide annual performance evaluations
completed the course work for the              to subordinate non-supervisory
degree.                                        personnel. When interviewed, the
                                               subject acknowledged that he failed to
The Agency referred this matter to OPM         provide timely appraisals for the support
for a suitability determination. During        personnel under his supervision. The
this reporting period, OPM found that          subject acknowledged that he received
the subject was not unsuited for Federal       notices from HR that the appraisals were
employment. The Agency proposed                due, but he denied knowing that he was
disciplinary action in October 2004.           required to forward the completed
(OIG-I-345)                                    appraisals to HR. The Agency resolved
                                               this matter by a caution that was
•   Sexually Explicit Internet                 transmitted orally to the subject.
Material. Following a proactive OIG            (OIG-I-357)
investigative review of the Agency's
Internet firewall logs, we initiated an        •   Labor Relations. The OIG received
investigation of an employee who was           an allegation that the Agency negotiated
suspected of using the Government              an illegal agreement with a Regional
computer in his office to view sexually        Local of the National Labor Relation
explicit material on the Internet. Using       Board Union for the requirements of
commercially available forensic                compensatory time in the Region. In
software, we substantiated the                 this particular case, whether the
allegation. The Agency is now                  negotiated terms of the subject
considering what disciplinary action           agreement fell under 5 USC §
may be appropriate. (OIG-I-360)                7106(a)(2)(B) as assignment of work or
                                               § 7106(b)(2) as a procedure is not a legal

NLRB OIG Semiannual Report                 8               April 1 – September 30, 2004
                                                               INVESTIGATIONS PROGRAM

question the answer of which was                 log of calls to a nationwide toll free
patently clear. As such, we believed that        number or the office numbers and a log
the Agency was justified in maintaining          of mail, e-mail, and facsimile messages
a good faith legal argument that the             are maintained. All information
provisions of the agreement are                  received, regardless of the method used,
procedural and are subject to the                is referred to as HOTLINE contacts.
collective bargaining process.
(OIG-I-358)                                      The information received over the
                                                 hotline is the basis for the initial review
•   Prohibited Personnel Practices.              for potential investigations. The
    As previously reported in October            information is analyzed to determine if
    2000, the OIG received an allegation         further inquiry is warranted. Most
    that a senior management official            HOTLINE contacts are calls from
    was the subject of retaliatory               members of the public seeking help on
    personnel action. After reviewing            an employment related problem or issues
    the allegation, we forwarded it to the       outside OIG and/or Agency jurisdiction.
    U.S. Office of Special Counsel               As appropriate, OIG refers these callers
    (OSC) for review and possible                to the NLRB office; local, state, or
    investigation. During this reporting         Federal agency; or private resource to
    period, OSC completed its                    provide assistance.
    investigation and determined that no
    action was necessary. (OIG-I-                During this reporting period, OIG
    275(R))                                      received 92 hotline contacts, of which 37
                                                 were telephone calls and 55 were in
Hotline                                          writing. Three contacts resulted in OIG
Employees and members of the public              investigative cases.
with information on fraud, waste, and
abuse are encouraged to contact OIG. A



NLRB OIG Semiannual Report                   9               April 1 – September 30, 2004
                  LEGISLATION, REGULATIONS, AND POLICY

The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed seven pieces of legislation and one proposed regulatory
matter.

Legislation                                      H.R. 2146, the National Labor
We reviewed the following legislation            Relations Board Ruling Enforcement
and provided input when appropriate.             Act of 2003. This legislation amends
                                                 the NLRA to authorize the NLRB to
S. 2637 and H.R. 4343, the Secret                award the employees in a bargaining
Ballot Protection Act of 2004. This              unit compensation for any delay in
legislation amends the NLRA to make it           bargaining caused by an unlawful refusal
an unfair labor practice for an employer         by the employer to bargain before
to recognize or bargain collectively with        entering into the first collective-
a labor organization that has not been           bargaining contract. The compensation
selected by a majority of the employees          for such delay would be measured by a
in a secret ballot election conducted by         specified formula involving a statistical
the NLRB; and for a labor organization           compilation of bargaining settlements.
to cause or attempt to cause an employer
to recognize or bargain collectively with        S. 1925 and H.R. 3619, the Employee
a representative that has not been               Free Choice Act. This legislation
selected in such manner. If signed into          would amend the NLRA to require the
law, these amendments would be                   NLRB to certify a bargaining
inapplicable to collective bargaining            representative without directing an
relationships that were recognized               election if a majority of the bargaining
before enactment of this legislation.            unit employees have authorized
                                                 designation of the




NLRB OIG Semiannual Report                  10               April 1 – September 30, 2004
                                                  LEGISLATION, REGULATIONS, AND POLICY

representative and there is no other               attorney's fees recovery to prevailing
individual or labor organization certified         parties if the adjudicative officer of the
or recognized as the exclusive                     agency finds that the agency's position
representative of any of the employees             was substantially justified; and the rate
in the unit. The legislation also revises          cap of $125 per hour on attorney's fees.
enforcement requirements with respect              The legislation also modifies Federal
to unfair labor practices during union             provisions regarding the functions and
organizing drives and provides, under              duties of the Office of Advocacy to
injunction provisions, for priority to be          include ensuring that the justice system
given to preliminary investigation of              remains accessible to small businesses
charges of violations by employers or              for the resolution of disputes with the
other entities and adds to remedies for            Federal Government.
violations such as backpay plus
liquidated damages and additional civil            H.R. 4754, Departments of
penalties.                                         Commerce, Justice, and State, the
                                                   Judiciary, and Related Agencies
H.R. 4680, the Tribal Labor Relations              Appropriations Act, 2005. In addition
Act. This legislation would amend the              to authorizing the appropriations for the
NLRA to ensure that Indian tribes and              specified agencies, this legislation would
any organizations owned, controlled, or            require that those agencies certify that
operated by Indian tribes are not                  telecommuting opportunities are made
considered employers for purposes of               available to 100 percent of its eligible
jurisdiction of the NLRB.                          workforce. Of the amount appropriated
                                                   for each agency, $5,000,000 will be
H.R. 2204, the Equal Access to Justice             made available only upon such
Reform Act of 2003. This legislation               certification.
eliminates Equal Access to Justice Act's
"substantial justification defense"
whereby the Government can deny

NLRB OIG Semiannual Report                   11                April 1 – September 30, 2004
                                                LEGISLATION, REGULATIONS, AND POLICY

S. 2536, the Homeland Security Civil             Policy
Rights and Civil Liberties Protection
                                                 We provided copies of the forms we use
Act of 2004. This legislation would
                                                 to inform employees of his or her rights
enumerate the responsibilities of the
                                                 during an OIG investigation to a
Officer for Civil Rights and Civil
                                                 PCIE/ECIE working group that is
Liberties of the Department of
                                                 attempting to develop standard forms for
Homeland Security, to require the
                                                 the OIG community. This group is
Inspector General of the Department of
                                                 coordinating their efforts with the
Homeland Security to designate a senior
                                                 Department of Justice to ensure that
official to investigate civil rights
                                                 employee statements can withstand
complaints.
                                                 admissibility challenges during criminal
Regulations                                      prosecutions.

The Counsel to the Inspector General is
an advisory member of the Agency's
Rules Revision Committee that develops
changes to Agency procedural
regulations. During this reporting
period, the committee reviewed a
proposed Privacy Act notice for the
Agency's Case Activity Tracking System
(CATS). Over the past year, the OIG
has informally expressed its concern to
the Agency regarding the lack of Privacy
Act System of Records notice for CATS.




NLRB OIG Semiannual Report                 12               April 1 – September 30, 2004
                                                         LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       On June 1, 2004, the Counsel and Lead
•   The Inspector General is a member             Auditor gave a presentation to the Small
of the Executive Council on Integrity             Agency Council Finance Committee on
and Efficiency (ECIE), which consists             meeting the requirements and due dates
primarily of the inspectors general at the        for an audit of an agency's financial
designated Federal entities in the IG Act.        statement. As a result of the
She participated in activities sponsored          Accountability of Tax Dollars act of
by the President's Council on Integrity           2002, Public Law 107-289, many small
and Efficiency (PCIE), which consists             agencies, including the NLRB, are
primarily of the Presidentially-appointed         undergoing the first audit of their
inspectors general. She joined the Audit          financial statements.
Committee in May 2001.
                                                  The Counsel participated in the Council
The Assistant Inspector General for               of Counsels to Inspectors General.
Audits, or designated auditors,
participated in the Federal Audit                 The Counsel and an auditor are members
Executives Council (FAEC), Financial              of a PCIE/ECIE committee reviewing
Statement Audit Network, Results Act              issues associated with e-government
Group, IDEA Users Group, and the                  initiatives and developing
FAEC Information Technology Security              recommendations to ensure the
Committee.                                        reliability and authenticity of electronic
                                                  data and signatures.



NLRB OIG Semiannual Report                   13               April 1 – September 30, 2004
                                                           LIAISON ACTIVITIES

General Accounting Office
The IG Act states that each inspector
general shall give particular regard to the
activities of the Comptroller General of
the United States, as head of the General
Accounting Office, with a view toward
avoiding duplication and ensuring
effective coordination and cooperation.
No reviews of NLRB are currently
ongoing.




NLRB OIG Semiannual Report                    14   April 1 – September 30, 2004
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Four cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 16.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. The audit reports did not identify any funds that could be put to better use.
                See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the
                reporting period for which no management decision has been made
                by the end of the reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      15                   April 1 – September 30, 2004
                             AUDIT REPORTS BY SUBJECT MATTER

                                                                         Funds To
                                 Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number           Costs          Costs        Costs      Better Use

ADMINISTRATION

Audit of the Timeliness of
Personnel Actions,
OIG-AMR-42-04-02                     0             0            0            0


Audit of the Archiving of Case
Files, OIG-AMR-43-04-03              0             0            0            0




NLRB OIG Semiannual Report               16            April 1 – September 30, 2004
Table 1                        REPORTS WITH QUESTIONED COSTS

                                                          Dollar Value
                                     Number of    Questioned      Unsupported
                                      Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period            0            0               0

B. Which were issued during the
   reporting period                      0            0               0

       Subtotals (A+B)                   0            0               0


C. For which a management
   decision was made during the
   reporting period                      0            0               0

(i)     Dollar value of disallowed
        costs                            0            0               0

(ii)    Dollar value of costs not
        disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0            0               0




NLRB OIG Semiannual Report                   17       April 1 – September 30, 2004
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Questioned
                                      Reports       Costs
A. For which no management
   decision has been made by the
   commencement of the period            0            0

B. Which were issued during the
   reporting period                      0            0

       Subtotals (A+B)                   0            0


C. For which a management
   decision was made during the
   reporting period                      0            0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0            0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0            0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0            0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0            0




NLRB OIG Semiannual Report                   18       April 1 – September 30, 2004
                        Fraud Waste Abuse -
                        You can stop it!

                        Call the IG HOTLINE
                        800 736-2983

                        Or Write to the
                        Office of Inspector General
                        NLRB
                        1099 14th Street, NW
                        Washington, DC 20570




NLRB OIG Semiannual Report       19           April 1 – September 30, 2004
